l.f

♦

No..
In the Supreme Court of the United States //
I'l

!k
JEREMY COLLINS, PETITIONER
V.

REBECCA PUTT, in her individual and official capacity, ED KLONOSKI, in his
official capacity as President of Charter Oak State College and CHARTER OAK
STATE COLLEGE
RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

FILED
DEC 2 3 2020
Jeremy Collins, Pro Se
61 Clark Street
Milford, CT 06460
collinsvputt@gmail.com
203-585-7282

OFFICE OF THE CLERK
SUPREME COURT. U.S.

'•s

QUESTIONS PRESENTED
J
1. Whether or not viewpoint discrimination in a college classroom is permissible
under the Supreme Court's ruling in Hazelwood Sch. Dist. v. Kuhlmeier, 484 U.S. 260.

2. Whether or not a college student's classroom speech is protected by the First
Amendment and the Supreme Court's ruling in Tinker v. Des Moines Independent
Community School District, 393 U.S. 503.

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
RELATED CASES
Collins v. Putt, No. 3:17-cv-01621, U. S. District Court for Connecticut.
Judgment entered March 28, 2019.
Collins v. Putt, No. 19-1169, Court of Appeals for the Second Circuit.
Judgement entered October 29, 2020.

TABLE OF CONTENTS
PAGE
OPINIONS BELOW.

1

JURISDICTION

1

CONSITUTIONAL PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE PETITION

5

CONCLUSION

8
INDEX TO APPENDICES

APPENDIX A
Court of appeals order denying rehearing, filed November 25, 2020

la

Court of appeals opinions, filed October 29, 2020

2a

District court's order granting motion to dismiss, filed March 28, 2019

47a

An email sent from Respondent Putt to Petitioner,

59a

Classwork which was censored by Respondent Putt

60a

TABLE OF AUTHORITIES
CASES

PAGE NUMBER

Bethel School District Number 403 v. Fraser 478 U.S. 675

2

Tinker v. Des Moines Independent Community School District, 393 U.S. 503

2-8

Hazelwood Sch. Dist. v. Kuhlmeier, 484 U.S. 260

2-8

Peck v. Baldwinsville Cent. School Dist., 426 F. 3d 617

5

Axson-Flynn v. Johnson, 356 F.3d 1277

5

Healy v. James, 408 U.S. 169

5

Morse v. Frederick, 551 U.S. 393

6

Guiles exRel. Guiles v. Marineau, 461 F.3d 320

6

OPINIONS BELOW
The opinions of the court of appeals are found at App., infra, 2a-46a. The
opinion of the district court is found at App., infra, 47a-58a. Neither case is published.
JURISDICTION
The district court granted a 12(b)6 motion to dismiss for failure to state a claim
on March 28, 2019. The judgement of the court of appeals was was entered on October
29, 2020. A petition for rehearing was denied on November 25, 2020 (App., infra, la).
The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The First Amendment to the Constitution provides in pertinent part that
“Congress shall make no law

•k k k

abridging the freedom of speech.” U.S. Const.

Amend. I.
STATEMENT AND BACKGROUND
The bare facts of this case and the evidence presented by the petitioner (App.,
infra, 59a-61a) are undisputed by the parties: The petitioner Jeremy Collins (Collins)
was enrolled at Charter Oak State College, a public "online-only" college, for the Fall
2017 term. Collins was enrolled in a course, Communications 101, which was taught
by the respondent Rebecca Putt (Putt).
At the time of the events which gave rise to this suit all classes were conducted
by Charter Oak State College "online", i.e. hosted on an internet website, via
commercially licensed software known as Blackboard LMS. The Blackboard Learning
Management System is one of the two leading software programs used to teach
courses online and is utilized by many colleges and universities in the United States
from Charter Oak State College to Princeton University.

!•)

https://blackboard. princeton.edu/

1

On or about the first week of September 2017 Collins posted to the Blackboard
website as directed by Putt in response to a classroom discussion assignment. Collins
posted his answer to the assignment, then posted a reply to another student who
responded to his post, and so on. On or about September 6, 2017 Putt censored
(deleted) his entire discussion, including the posts of another student who had
responded to him, and sent him an email explaining why she had censored him (App.,
infra,. 59-61a).
All parties agree that Collins was not accused of any disciplinary or academic
misconduct, and all agree that he received full credit for the discussion towards his
final grade. The parties have not argued that his speech might be considered vulgar or
offensive in a way that would implicate the school speech restrictions found in Bethel
School District Number 403 v. Fraser 478 U.S. 675, nor have they argued that his
speech might have been considered disruptive under the rule of Tinker v. Des Moines
Independent Community School District, 393 U.S. 503.
Both courts have ruled that because Putt's actions fell within the well nigh
unlimited reach of "legitimate pedagogical concerns" her actions to censor Collins were
lawful under the rule of Hazelwood Sch. Dist. v. Kuhlmeier, 484 U.S. 260. However, in
a far more scrupulous concurrence (App., infra, 21a-46a), Judge Menashi joined the
opinion of the majority only because he believed that Putt was entitled to qualified
immunity, and expatiated at length on the significant shortcomings of the majority
opinion. Unfortunately, no court has yet applied this Court's precedent: A "reasonable
person" must conceivably believe that Collins's comments could bear the school's
"imprimatur" in order for Hazelwood to govern this matter. Neither the district court
nor the appeals courts has performed this rudimentary analysis before reaching their
respective conclusions.

2

In this case, the locus of the events which led to this suit is the virtual
Blackboard classroom, which is a password-protected website that no "reasonable
person" could access unless they were either a student or a college administrator. Of
those two types of "reasonable person", student or teacher, both know that students'
posts are not endorsed by the school, and that Collins's posts, which were in some
sense critical of the materials used to teach the course, were obviously not the views of
the school. A reasonable person, student or teacher, would probably assume that if the
school didn't like their own materials, they could do something about it, and wouldn't
need to comment on them in a classroom assignment.
Members of the public are not permitted to access the Blackboard course
website and Collins has not even been able to obtain posts made by his classmates, or
their names, as Charter Oak State College contends they are protected by student
privacy laws. Ergo, there can be no question as to whether the public has access to
view and possibly mistake Collins's views as those of Charter Oak State College. Even
in case of a lawsuit, the door to the Blackboard classroom is firmly shut.
Putt's censorship was arguably reactionary and entirely subjective. According to
Putt's own email Collins was censored because he had been critical of the classroom
materials when writing his answer, and because he had offended her personally and
might offend others. The boundaries of her displeasure were not otherwise articulated
and it would be impossible, simply as a practical matter, for Collins to limn the
horizon of what might offend her, or the hypothetical others, and thereby avoid more
censorship in future. Like the greengrocer2 descibed by Vaclav Haval in his famous
essay Collins was expected to unthinkingly post slogans, not because he believes them,
but because he doesn't, or is indifferent, to signify his complicity with the regime.
Havel, Vaclav. ‘“The Power of the Powerless’ - Vaclav Havel.” Bard HAC, hac.bard.edu/amor2.)
mundi/the-power-of-the-powerless-vaclav-havel-2011-12-23.

3

This case is itself evidence that hostility to free speech on college campuses3 and
the corresponding epidemic of student self-censorship across the United States4 is, at
least partially, based on actual instances of intimidation and coercion on campus. The
fact that many students are undertaking lifelong debt payments in order to fund their
indoctrination should move this Court, at the very least, to clarify what students can
rightfully expect to be subjected to before they sign on the dotted line.
Collins has brought this case, which is unique in its simplicity and limited
scope, merely to clarify the rights of students to express their own viewpoint in a
college classroom without fear of censorship or punishment. The evidence necessary to
show this case has merit is already before this Court in the form of Collins's work and
Putt's emailed confession wherein she admits to her actions to censor Collins and her
motives for doing so.
The particular value in this case is not only the aforementioned merit but also
the venue. Online classrooms provide a perfect environment for classroom censorship
to flourish because they often do not set an appointed time and place to meet like a
brick and mortar classroom, but rather a website that is accessed over a period of
days, weeks or months. In the future disfavored speech could "dissapear" instantly,
flagged by key word or phrase, never to be seen or heard by anyone but merely
scanned and binned by an AI censor in a fraction of a second. It is therefore the
important role of this Court to ensure that "In our system, students may not be
regarded as closed-circuit recipients of only that which the State chooses to
communicate," Tinker at 511.
3

Jones, Jeffrey M. “More U.S. College Students Say Campus Climate Deters Speech.” Gallup.com,
Gallup, 23 Nov. 2020, news.gallup.com/poll/229085/college-students-say-campus-climate-detersspeech. aspx?utm_source=aler t.

4
Friedersdorf, Conor. “Evidence That Conservative Students Really Do Self-Censor.” The
Atlantic, Atlantic Media Company, 17 Feb. 2020, www.theatlantic.com/ideas/archive/2020/02/evidenceconservative-students-really-do-self-censor/606559/.
4

REASONS FOR GRANTING THE PETITION
The primary issue in this case is free speech. But whether or not this Court
believes that this case ought to be governed by the rule of Hazelwood, as the lower
courts have held, or the rule of Tinker, as Collins contends, this case is still worthy of
review by this Court.
AS TO QUESTION 1
A fair reading of Collins's current operative complaint has forced at least one
appeals court judge to conclude that he has plausibly alleged viewpoint based
discrimination: "We must construe Collins's complaint liberally and afford him the
benefit of factual inferences. Applying that standard, I would conclude that Collins
plausibly alleges that Putt treated his post differently from other students' posts
because she thought Collins's post was offensive and expressed a view with which she
disagreed." (App., infra, 42a) The Second Circuit has has held that that sort of
viewpoint discrimination is unconstitutional but not all circuits agree. Compare Peck
v. Baldwinsville Cent. School Dist., 426 F. 3d 617 (Second Circuit) and Axson-Flynn-v.
Johnson, 356 F.3d 1277 (Tenth Circuit).
There is a split between the sister circuits as to whether or not viewpoint-based
discrimination is permitted in the college classroom under the Hazelwood rule. The
Second, Sixth, Ninth, and Eleventh Circuits have held that regulation of student
speech must be viewpoint-neutral while the First, Third and Tenth Circuits have held
differently, allowing for viewpoint-based discrimination. Despite this Court's ruling in
Healy v. James, 408 U.S. 169 at 180 “...the precedents of this Court leave no room for
the view that, because of the acknowledged need for order, First Amendment
protections should apply with less force on college campuses than in the community at
large." some courts have gone so far as to conclude the exact opposite.

5

It was enough for this Court to dismiss its most recent student speech case,
Morse v. Frederick, 551 U.S. 393 from consideration under the Hazelwood rule with
the apparently dispositive statement that "Kuhlmeier does not control this case
because no one would reasonably believe that Frederick’s banner bore the school’s
imprimatur." Morse at 2627. The Second Circuit has also said as much In Guiles ex
Rel. Guiles v. Marineau, 461 F.3d 320, cert denied:
"The deferential standard of Hazelwood, which permits schools to regulate
student speech so long as the regulation reasonably relates to "legitimate pedagogical
concerns," Hazelwood,484 U.S. at 273, 108 S.Ct. 562, comes into play only when the
student speech is "school-sponsored" or when a reasonable observer would believe it to
be so sponsored, see id. at 273-74, 108 S.Ct. 562; Peck,426 F.3d at 628-29; Saxe,240 F.3d
at 213-14 (noting that "Hazelwood's permissive 'legitimate pedagogical concern' test
governs only when a student's school-sponsored speech could reasonably be viewed as
speech of the school itself' (emphasis added)). No one disputes that the school did not
sponsor Guiles's T-shirt or that the T-shirt could not reasonably be viewed as bearing
the school's imprimatur." Guiles at 327.

Since a determination of whether or not the speech at issue could be seen to
bear the "school's imprimature" is the fundamental element in a Hazelwood analysis,
and both this Court and the Second Circuit have clearly said as much, it is unclear
why the lower courts have not simply applied the law, and even more unclear as to
why Putt would be entitled to Qualified Immunity given there seems to be
longstanding agreement between this Court and the Second Circuit on this matter.
Collins does not agree that his classroom assignment is a "school-sponsored
expressive activity" that could be seen to bear the imprimature of the school, but if
this Court sees differently, it should still clarify, for the benefit of the circuit courts,
whether or not viewpoint discrimination is permissible under Hazelwood. This Court
opined that "We need not now decide whether the same degree of deference is
appropriate with respect to school-sponsored expressive activities at the college and
university level." Hazelwood at 273. This might now be an oppotune moment to do so
given the issues prevailing on campuses across the country.

6

AS TO QUESTION 2
Collins's far simpler proposition is that the rule of Tinker applies to this case
and Putt's censorship of Collins was therefore unconstitutional because "A prohibition
against expression of opinion, without any evidence that the rule is necessary to avoid
substantial interference with school discipline or the rights of others, is not permissible
under the First and Fourteenth Amendments."

Tinker at 503. The parties have

muddied this clear water with arguments as to whether or not Collins's speech was
"on-topic", "responsive" or a "critique" but ultimately, as Judge Menashi has pointed
out, none of the foregoing arguments add up to a hill of beans: "The court appears to
assume that the responsiveness of Collins's posts to the assignment is dispositive of his
viewpoint discrimination claim. In other words, the government would be free to censor
it. That premise is inconsistent with Supreme Court and Second Circuit precedent."
(App., infra, 37a).
Collins's case is not a personal vendetta predicated on something as
insignificant as a bad grade or a rude email, it is based on unlawful government
censorship with implications far greater than his own interest. Colleges and
universities also deserve the chance to fulfill their educational mission and should be
relieved of the responsibility (and possible liability) for regulating personal viewpointbased student speech that occurs in a classroom environment. Tinker's forebearance
ends when student speech " ....intrudes upon the work of the schools or the rights of
other students." Tinker at 508, but there is no evidence that Collins's speech did either
of those things, even prospectively. It is rather that colleges and universities have
been intimidated by legal threats into granting a "privilege" to elitist cadres in their
own ranks (and elsewhere) to police speech they find offensive at the expense of
constitutionally protected student speech.

7

» .

There simply isn't a fair and just alternative to Tinker presented anywhere in
the record but instead the tacit endorsement of an amorphous speech code based
purely on a censor's personal whims, opinions and beliefs. If Tinker is to remain
relevant, especially for the foregoing reasons, it must be given some teeth. The appeals
court contends that Hazelwood governs this matter because Collins's speech "...was
made specifically in response to a class assignment, under the supervision of a college
faculty member, and on a message board that was provided by the college offering the
class." (App., infra, 11a). This language effectively overrules Tinker because little
classroom speech, if any, could be said to fall outside of those broad and encompassing
generalities. So momentous a decision should come under this Court's review.
Tinker is nonetheless applicable here, and should control, both as a vital
affirmation of students' liberty and a repudiation of the creeping dimunition of their
speech rights, the consequences thereof to be borne by future generations. Tinker
neither predicts nor requires perfect implementation, it is a brave decision which
foreshadows possible disorder, however minimal, within its remit: "Any departure
from absolute regimentation may cause trouble. Any variation from the majority's
opinion may inspire fear. Any word spoken, in class, in the lunchroom, or on the
campus, that deviates from the views of another person may start an argument or cause
a disturbance. But our Constitution says we must take this risk..." Tinker at 506. It is
now for this Court to once again take a risk and grant this petition.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

ft&

Jeremy Collins, Pro Se
December 23, 2020

8

